No.

IN THE SUPREME COURT OF THE UNITED STATES

JOHN SHIELDS,
PETITIONER,
VS.
UNITED STATES OF AMERICA,
RESPONDENT.

APPENDIX TO PETITION FOR A WRIT OF CERTIORARI

DENNIS C. BELLI
536 South High St. Fl. 2
Columbus, Ohio 43215-5785
Phone:(614) 300-2911
Fax: (888) 901-8040
Email:
bellilawoffice@yahoo.com
ATTORNEY FOR PETITIONER

Case: 19-6428

Document: 54-2

Filed: 04/06/2021

Page: 1

NOT RECOMMENDED FOR PUBLICATION
File Name: 21a0174n.06
Nos. 19-6428/6429
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
)
)
)
)
)
)
)
)
)
)

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
JOHN SHIELDS,
Defendant-Appellant.

FILED
Apr 06, 2021
DEBORAH S. HUNT, Clerk

ON APPEAL FROM THE
UNITED STATES DISTRICT
COURT FOR THE WESTERN
DISTRICT OF TENNESSEE

Before: STRANCH, LARSEN, and NALBANDIAN, Circuit Judges.
LARSEN, Circuit Judge. John Shields was charged with and convicted of committing
several offenses related to his participation in a drug-trafficking enterprise. On appeal, he raises a
host of issues, ranging from the district court’s refusal to hold an evidentiary hearing on his double
jeopardy claim to the procedural reasonableness of his sentence. We AFFIRM.
I.
A.
Sometime around March 2013, law enforcement began investigating the Memphis Peda
Roll Mafia (PRM), a street gang associated with the Los Angeles-based Grape Street Crips. Fred
McCaster, Jr. was the leader of the Memphis PRM, and he testified that his membership in the
gang “enhanced” his ability to obtain drugs from suppliers in California. For instance, a fellow
gang member introduced McCaster to Eric and Calvin Avendano, two members of what appears
to be a different gang—the Grape Street Tiny Wynos. And McCaster also began working with

1a

Case: 19-6428

Document: 54-2

Filed: 04/06/2021

Page: 2

Nos. 19-6428/6429, United States v. Shields
Reginald Wright, Jr., a “close associate of [the] Grape Street Crips.” McCaster eventually
leveraged these connections to distribute a variety of drugs in Memphis: Wright supplied him with
marijuana, and the Avendanos provided harder drugs as well, including crystal meth, heroin, and
cocaine.
At some point, McCaster initiated Shields into the Memphis PRM. With McCaster’s
blessing and introduction, Shields was then able to work with the Avendano brothers and Wright
as his own suppliers. But the law soon caught up with Shields. Based on a multi-year investigation
into the Memphis PRM, the government discovered that Shields had engaged in the trafficking of
a number of drugs, including marijuana, heroin, and methamphetamine. On May 25, 2017, a grand
jury returned separate indictments charging Shields with participation in the Avendano and Wright
drug-trafficking conspiracies, and with associated drug-trafficking charges.
According to the Wright indictment—to which Shields pleaded guilty—Shields
participated in a conspiracy to possess and distribute marijuana on behalf of Wright’s organization
from March 2013 through May 2017. The plan was straightforward. Using mainly the U.S. Postal
Service as an unwitting courier, Wright would ship the marijuana from California to Shields and
others in Tennessee. In exchange, Shields would deposit cash into certain Wells Fargo and Bank
of America accounts, and Wright and his associates would withdraw the money in California.
Based on these allegations, Shields pleaded guilty to: (1) conspiracy to possess with intent to
distribute marijuana; (2) possession with intent to distribute marijuana; and (3) conspiracy to
commit money laundering.
The Avendano indictment charged Shields with participating in a separate conspiracy from
March 2013 until September 2015 to possess and distribute two different drugs—heroin and
methamphetamine—on behalf of the Avendano organization. As alleged in the indictment, the

-2-

2a

Case: 19-6428

Document: 54-2

Filed: 04/06/2021

Page: 3

Nos. 19-6428/6429, United States v. Shields
Avendanos would mail heroin and methamphetamine to Shields, who would then pay for the drugs
by depositing cash into various Wells Fargo and Bank of America accounts controlled by the
Avendanos. The grand jury accordingly charged Shields with: (1) conspiracy to possess with the
intent to distribute heroin (Count 1); (2) conspiracy to possess with the intent to distribute
methamphetamine (Count 2); and (3) conspiracy to money launder (Count 9). As further described
below, the grand jury also indicted Shields on one count of (4) aiding or abetting possession with
the intent to distribute heroin (Count 6), based on the interception of a Memphis-bound package
containing the drug.
Following his guilty plea in the Wright case, Shields joined a codefendant’s motion to
dismiss the methamphetamine and heroin conspiracy charges in the Avendano indictment on
double jeopardy grounds. The defendants argued that the Wright and Avendano indictments
separately charged what was, in reality, “a single, unified conspiracy.” After a hearing on the
merits, the district court disagreed and denied the defendants’ motion to dismiss. It also denied
the defendants’ request for an evidentiary hearing.
B.
Shields then proceeded to trial on the Avendano charges. As to the conspiracy counts,
Shields’ strategy was to admit to the jury that he dealt marijuana but to argue that he was not
involved in the Avendanos’ distribution of methamphetamine and heroin.

However, the

government introduced extensive evidence contradicting this theory.
First, many of Shields’ coconspirators testified against him. McCaster testified that the
Avendanos provided Shields with “[c]rystal meth and heroin” and explained how he had initially

-3-

3a

Case: 19-6428

Document: 54-2

Filed: 04/06/2021

Page: 4

Nos. 19-6428/6429, United States v. Shields
vouched for Shields so that he could work with the Avendanos. Timothy Wright1 testified that
Shields told him “something about” receiving “ice water” or “meth” from the Avendanos. Jeremy
Davis spoke extensively about his and Shields’ dealings with heroin and said that they had received
shipments of heroin from the Avendanos. And Eric Avendano explained how his family’s
organization operated—by sending drug-filled packages through the mail and using Bank of
America and Wells Fargo accounts to collect payment from their Memphis associates. Eric further
testified that he knew that his brothers, Calvin and Jeffrey Avendano, provided Shields with heroin
and other drugs.
In addition, the government introduced text messages sent to a Los Angeles-area number
from a phone seized from Shields’ pocket. The messages contained several pieces of incriminating
evidence linking Shields to the conspiracy: tracking numbers for packages; requests for Memphis
addresses to mail drugs to; texts confirming payment; references to Wells Fargo and Bank of
America accounts that Eric Avendano recognized as accounts his organization used for funneling
money; and requests by Shields for “bottles” of “glass,” which Eric identified as code in his
organization for “pounds of meth.” The call logs on the phone also showed multiple calls between
Shields and two of the Avendano brothers.
Furthermore, a forensic auditor discussed his investigation into the bank accounts
referenced in the text messages on Shields’ phone. His review of Bank of America and Wells
Fargo bank statements showed that, on dozens of occasions, an individual in Memphis had
deposited $9,000 into the accounts, and that same amount was quickly withdrawn in California.

1

Based on the record, there does not appear to be any relation between Timothy Wright, a
Memphis resident, and Reginald Wright, Jr., the California-based supplier named in the Wright
indictment.
-4-

4a

Case: 19-6428

Document: 54-2

Filed: 04/06/2021

Page: 5

Nos. 19-6428/6429, United States v. Shields
The government connected those deposits to Shields by introducing surveillance video from the
Memphis-area banks that captured Shields making large cash deposits into the listed accounts.
A postal inspector next testified that he had identified over 200 suspicious packages
throughout the investigation into the Memphis PRM. Several of them had been seized by law
enforcement and were found to contain methamphetamine, heroin, cocaine, or marijuana.
One of those seized packages is relevant to Shields’ charge for aiding and abetting
possession with the intent to distribute heroin (Count 6). On September 17, 2015, a police officer
obtained a search warrant to inspect a 20-pound package sent from Los Angeles to Memphis. The
package contained two bricks of heroin sealed inside a metal box. Officials removed the heroin,
resealed the package, and “prepare[d] for what’s called a controlled delivery . . . to get the suspects
who would be receiving the box into custody.”
Meanwhile, text messages showed that Shields had provided Jeremy Davis, one of Shields’
coconspirators, with a tracking number for this particular heroin-filled package. Davis testified
that on the morning of September 17, Shields also called to tell him “that it was green light that
the package had arrived,” and Davis admitted that they were “expecting” heroin to be in the
package. When Davis arrived to pick up the package, he was quickly apprehended by police.
Davis then cooperated with the arresting officers, and he turned over his phone “[t]o show the
address and tracking number that [he] received from [Shields].” He also placed a recorded phone
call to Shields while in custody, in an attempt to get “Shields to pick the package up.” But that
effort was unsuccessful, as Shields had already heard that Davis had been arrested.
C.
Toward the end of Shields’ trial, the government asked the district court to issue the
following joint-possession instruction for Count 6:

-5-

5a

Case: 19-6428

Document: 54-2

Filed: 04/06/2021

Page: 6

Nos. 19-6428/6429, United States v. Shields
The government does not have to prove that the defendant was the only one who
had possession of the alleged controlled substances. Two or more people can
together share actual or constructive possession over property. If they do, both are
considered to have possession as far as the law is concerned.
But remember that just being present with others who had possession is not enough
to convict. The government must prove the defendant had either actual or
constructive possession of the alleged controlled substances and knew that he did
for you to find him guilty of this crime.
This was nearly identical to our pattern instruction. See Pattern Crim. Jury Instr. 6th Cir. 2.11.
But Shields objected, claiming there was no “evidence to suggest that there was any joint
possession of that particular package between Mr. Shields and anyone else.” The district court
overruled Shields’ objection, reasoning that Davis had testified that he and Shields were
“partners,” and “when [Davis] grabbed the package, he was doing it jointly with Mr. Shields.”
After less than two hours of deliberation, the jury convicted Shields on all four counts. The
parties then agreed to consolidate Shields’ sentencing for his convictions under the Avendano and
Wright indictments. Although the advisory Sentencing Guidelines called for life imprisonment,
the government asked for 30 years at the sentencing hearing. The district court decided to go even
lower. It sentenced Shields to concurrent aggregate prison terms of 95 months for the three
convictions under the Wright indictment, and 240 months for the four convictions under the
Avendano indictment.
Shields timely appealed. He raises several issues, including: (1) the district court’s refusal
to hold an evidentiary hearing on his double jeopardy claim; (2) insufficiency-of-the-evidence
claims for three of his four convictions; (3) a pair of evidentiary challenges; (4) a challenge to the
joint-possession instruction; and (5) a handful of claims related to the procedural reasonableness
of his sentence.

-6-

6a

Case: 19-6428

Document: 54-2

Filed: 04/06/2021

Page: 7

Nos. 19-6428/6429, United States v. Shields
II.
We turn first to Shields’ contention that the district court “deprived him of a fair and
reliable adjudication of his double jeopardy claim” by forgoing an evidentiary hearing. On this
front, Shields does not ask us to review the merits of his double jeopardy claim. He asks that the
case “be remanded for an evidentiary hearing” so that claim can “be further explored.”
We review the district court’s refusal to hold an evidentiary hearing for an abuse of
discretion. United States v. Brika, 416 F.3d 514, 529 (6th Cir. 2005). “A finding of an abuse of
discretion requires ‘a definite and firm conviction that the trial court committed a clear error of
judgment.’” Blue Diamond Coal Co. v. Trs. of the UMWA Combined Benefit Fund, 249 F.3d 519,
524 (6th Cir. 2001) (quoting Davis v. Jellico Cmty. Hosp., Inc., 912 F.2d 129, 133 (6th Cir. 1990)).
We are left with no such conviction here. The district court explained that it was not
holding an evidentiary hearing “because the parties did not disagree about the facts. They only
disagreed about the legal implications of those facts.” The court, accordingly, held a hearing at
which the parties could argue those legal implications. That was not an abuse of discretion.
To be sure, the “general rule” in this circuit is that “once a defendant has put forth a nonfrivolous claim of double jeopardy, the court should hold an evidentiary hearing to resolve any
factual disputes that arise.” In re Grand Jury Proceedings, 797 F.2d 1377, 1385 (6th Cir. 1986).
But we are not aware of any context in which we have held that a defendant is entitled to an
evidentiary hearing without making “at least some initial showing of contested facts.” United
States v. Giacalone, 853 F.2d 470, 483 (6th Cir. 1988). Further, this showing must be “sufficiently
definite, specific, detailed, and non-conjectural to enable the district court to conclude that
contested issues of fact” actually exist. United States v. Abboud, 438 F.3d 554, 577 (6th Cir. 2006)
(emphasis and citation omitted); see also Gonzales v. Galvin, 151 F.3d 526, 535 (6th Cir. 1998)

-7-

7a

Case: 19-6428

Document: 54-2

Filed: 04/06/2021

Page: 8

Nos. 19-6428/6429, United States v. Shields
(“Evidentiary hearings are not necessary where the parties’ briefs clearly set forth the relevant
facts and arguments of a case such that a hearing would not add anything to the briefs . . . .”).
Even in his brief to us, Shields does not dispute any of the facts upon which the district
court based its decision. Thus, Shields was not entitled to an evidentiary hearing on his double
jeopardy claim, and the district court did not err in rejecting his request for one. See United States
v. Ickes, 922 F.3d 708, 713 (6th Cir. 2019); United States v. Gross, 1 F.3d 1242, 1993 WL 300393,
at *1, *3 (6th Cir. 1993) (table) (per curiam) (upholding the district court’s denial, “without holding
an evidentiary hearing,” of a motion to dismiss an indictment on double jeopardy grounds based
“upon the proffers submitted by the parties”).
III.
Shields’ next raises an evidentiary challenge; we again review for an abuse of discretion.
See United States v. Collins, 799 F.3d 554, 577 (6th Cir. 2015). Shields believes that the district
court erred in admitting evidence of his gang affiliation, because it “was not relevant to the key
contested issue in the case.” To Shields, the only contested issue was whether the Avendanos
supplied him with heroin and methamphetamine, as opposed to marijuana. This argument is a
nonstarter.
“Evidence is relevant if: (a) it has any tendency to make a fact more or less probable than
it would be without the evidence; and (b) the fact is of consequence in determining the action.”
Fed. R. Evid. 401. That’s a low bar to admission. We have explained that “[e]vidence of gang
affiliation is relevant where,” for instance, “it demonstrates the relationship between people and
that relationship is an issue in the case, such as in a conspiracy case.” United States v. Ford, 761
F.3d 641, 649 (6th Cir. 2014). On the other hand, such evidence is inadmissible when “there is no

-8-

8a

Case: 19-6428

Document: 54-2

Filed: 04/06/2021

Page: 9

Nos. 19-6428/6429, United States v. Shields
connection between the gang evidence and the charged offense.” Id. at 650 (emphasis added)
(quoting United States v. Anderson, 333 F. App’x 17, 24 (6th Cir. 2009)).
Here, the evidence falls on the relevant side of the line. The government bore the burden
of establishing Shields’ participation in the Avendano conspiracy to sell methamphetamine and
heroin. See United States v. Potter, 927 F.3d 446, 453 (6th Cir. 2019). And the gang-related
evidence was highly probative of that participation. McCaster knew Shields well enough to
“bless[] him” into the PRM, a clique within the Grape Street Crips. McCaster’s membership in
the PRM “enhanced” his ability to obtain drugs from the Avendanos. And due to that relationship,
the Avendanos “always called [McCaster] on the phone” “whenever they wanted to work with
somebody else” in Memphis, including Shields. Evidence of Shields’ gang affiliation was
therefore probative of his ability to develop a business relationship with the Avendanos. As the
district court explained, Shields’ “membership in the Peda Roll Mafia and the Grape Street Crips
[was] the springboard that allowed Mr. Shields to then work with Mr. McCaster and with the
Avendano family in terms of obtaining the drugs.” The gang relationship was “the glue that
connect[ed] these parties” and showed “how they kn[e]w one another and worked together.” We
have little trouble concluding that this evidence was relevant to establish “the interrelationship of
the individuals participating in the conspiracy.” United States v. Miller, 48 F. App’x 933, 948 (6th
Cir. 2002) (citing United States v. Gibbs, 182 F.3d 408, 430 (6th Cir. 1999)).
Shields responds that what made the evidence irrelevant is that he “did not contest the fact
that he had an illegal business relationship with the Avendano Organization” selling marijuana.
But this argument is triply flawed. First, McCaster testified that the Avendanos provided Shields
with “[c]rystal meth and heroin,” and so the gang-related evidence was equally probative of
Shields’ ability to deal in these harder drugs. Second, Shields did not stipulate—or even offer to

-9-

9a

Case: 19-6428

Document: 54-2

Filed: 04/06/2021

Page: 10

Nos. 19-6428/6429, United States v. Shields
stipulate—to the existence of the drug conspiracies or his participation in them. The government
still had the burden of proving these elements beyond a reasonable doubt. See United States v.
Ray, 803 F.3d 244, 259 (6th Cir. 2015). Third, even if Shields had made such an offer, the
government is entitled in cases like this one to prove its case free from a defendant’s preference to
stipulate otherwise relevant evidence away. Old Chief v. United States, 519 U.S. 172, 189 (1997);
see United States v. Rios, 830 F.3d 403, 422 n.5 (6th Cir. 2016) (deeming it “irrelevant” in a
conspiracy case that “the defendants did not contest their membership in the [gang]”). Shields
would have had no basis to “stipulate or admit his way out of the full evidentiary force of the case
as the Government cho[se] to present it.” United States v. Luck, 852 F.3d 615, 626 (6th Cir. 2017)
(quoting Old Chief, 519 U.S. at 186–87).
Additionally, to the extent Shields raises a challenge under Federal Rule of Evidence 403,
he has not shown that the “probative value” of the gang-related evidence was “substantially
outweighed” by any danger of “unfair prejudice.” Fed. R. Evid. 403. Of course, “[t]rial courts
must treat evidence of gang affiliation with care since most jurors are likely to look unfavorably
upon a defendant’s membership in a street gang.” United States v. Tolbert, 8 F. App’x 372, 378
(6th Cir. 2001). But here, the evidence served a valid purpose. It helped illustrate Shields’
interrelationship, coordination, and ability to deal with his coconspirators. And it was highly
probative as to both the existence of the charged conspiracies and Shields’ association with them.
“The district court’s limiting instruction about the narrow uses for this evidence also diminished
any unfair prejudice by reducing the risk that the jury would put the evidence to an improper
purpose.” Potter, 927 F.3d at 452. During trial, the district court advised the jury that “being a
member of a gang is not itself unlawful.” It further explained that the “evidence of gang
membership [was] offered here to show a relationship among some of the individuals in this case

-10-

10a

Case: 19-6428

Document: 54-2

Filed: 04/06/2021

Page: 11

Nos. 19-6428/6429, United States v. Shields
and should not be considered by you for any other purpose.” The district court repeated this
limiting instruction before submitting the case to the jury. Shields offers nothing to overcome the
presumption that the jury followed these clear limiting instructions. See United States v. Burns,
298 F.3d 523, 543 (6th Cir. 2002).
Accordingly, the district court did not abuse its discretion by admitting evidence of Shields’
affiliation with the Peda Roll Mafia and the Grape Street Crips.
IV.
We now move to Shields’ sufficiency-of-the-evidence challenges. Shields contends that,
based on the evidence introduced at trial, no rational jury could have convicted him on three of the
four counts: Count 1 (conspiracy to possess and distribute methamphetamine), Count 6 (aiding
and abetting possession with intent to distribute heroin), and Count 9 (conspiracy to commit money
laundering). Evidence is sufficient to support a conviction if, “after viewing the evidence in the
light most favorable to the prosecution, any rational trier of fact could have found the essential
elements of the crime beyond a reasonable doubt.” Jackson v. Virginia, 443 U.S. 307, 319 (1979).
In making this assessment, “‘[w]e do not weigh the evidence, assess the credibility of the
witnesses, or substitute our judgment for that of the jury,’ and ‘[c]ircumstantial evidence alone is
sufficient to sustain a conviction.’” United States v. Hendricks, 950 F.3d 348, 352 (6th Cir. 2020)
(second alteration in original) (citations omitted).
A.
The evidence introduced at trial was more than sufficient to support Shields’ conviction
for conspiracy to commit money laundering. To prove this charge, the government had to show
that Shields “knowingly and voluntarily joined an agreement between two or more people to
(1) conduct a financial transaction from the proceeds of illegal activity, (2) knowing the money

-11-

11a

Case: 19-6428

Document: 54-2

Filed: 04/06/2021

Page: 12

Nos. 19-6428/6429, United States v. Shields
came from illegal activity, and (3) intending to promote that activity.” United States v. Tolliver,
949 F.3d 244, 248 (6th Cir. 2020) (per curiam); see 18 U.S.C. § 1956(a)(1), (h).
Shields says that the evidence falls short on the “proceeds” element. He notes that there
was no testimony that Shields used any profits from drug sales to prepay the Avendanos for future
shipments of drugs. Instead, the evidence showed that Shields deposited income from sales
produced by the previous drug shipment to reimburse the Avendanos and prompt the next
shipment. That is a distinction without a difference. The money laundering statute explicitly
defines “proceeds” to “includ[e] the gross receipts” that a defendant obtains “through some form
of unlawful activity.” 18 U.S.C. § 1956(c)(9). It thus does not matter “[t]hat the money [Shields]
allegedly moved around was income and not profits” from illicit drug sales. Tolliver, 949 F.3d at
248; see also United States v. Skinner, 690 F.3d 772, 782 (6th Cir. 2012).
Applying this standard, a rational juror could easily have found that Shields made financial
transactions using money obtained from the sales of illegal narcotics. Consider, first, the nature
of the scheme itself: “If you sell and pay, you get more drugs[.]” Eric Avendano testified that his
organization would often “front” drugs to distributors in Memphis by sending the drugs through
the mail. In turn, the organization used two national banks—Bank of America and Wells Fargo—
to receive payment. To make it all work, the Avendanos would send text messages containing the
bank account information of one of several individuals to the Memphis distributors, who would
typically deposit $9,000 at a time into the accounts. McCaster and Davis both confirmed that they
would make $9,000 deposits into Bank of America and Wells Fargo accounts, “[b]ecause
anything . . . over ten would probably be a red flag at the bank.” After the deposits were made in
Memphis, somebody from Los Angeles would withdraw the money, often the next day. This
scheme plainly violated the money laundering statute. See United States v. King, 169 F.3d 1035,

-12-

12a

Case: 19-6428

Document: 54-2

Filed: 04/06/2021

Page: 13

Nos. 19-6428/6429, United States v. Shields
1039 (6th Cir. 1999) (explaining that paying for drugs delivered on consignment “constitute[s]
‘promotion’ for the purposes of the money laundering statute when,” as here, “such payment
encourages further drug transactions”); Tolliver, 949 F.3d at 248 (similar).
Then there was plenty of evidence linking Shields to the scheme. Davis testified that he
had accompanied Shields to the bank when Shields had made deposits in the past. Surveillance
footage from Bank of America and Wells Fargo showed Shields depositing large amounts of cash
at times corresponding to several of the $9,000 transactions identified by the government. Sums
corresponding to those deposits were all withdrawn shortly thereafter in Los Angeles. Beyond
that, the government introduced text messages between Shields’ phone and a Los Angeles number
from January 2015. After Shields sent an address for delivery, he said, “[s]end the numbers.” The
response was “Aurora Gran,” followed by a bank account number, the letters “B-O-A,” and the
number “9000.” A few days later—and the same day a 20-pound package was delivered from
California to the address Shields had provided—surveillance footage showed Shields depositing a
stack of cash at a Memphis-area Bank of America. The name on the account? Aurora Gran. The
amount deposited? $9,000. The location of withdrawal just a few days later? Los Angeles County.
The amount withdrawn?

$9,000.

Everything about this transaction conformed with the

Avendanos’ money-laundering scheme and with the text messages on Shields’ phone. There was
sufficient evidence to support the jury’s conviction on Count 9.
B.
The next sufficiency challenge concerns the type of drugs that Shields purveyed.
Notwithstanding Shields’ insistence that he “dealt solely in marijuana and had nothing to do with

-13-

13a

Case: 19-6428

Document: 54-2

Filed: 04/06/2021

Page: 14

Nos. 19-6428/6429, United States v. Shields
other drugs marketed by the Avendanos,” the evidence tells another story. A rational jury could
have found that Shields conspired to possess and distribute methamphetamine.
To support this conviction, the government needed to prove three elements: (1) an
agreement between two or more persons to possess with the intent to distribute methamphetamine,
(2) the defendant’s knowledge of the agreement, and (3) the defendant’s voluntary participation in
the enterprise. Potter, 927 F.3d at 453; see 21 U.S.C. §§ 841(a)(1), 846. The existence of a
conspiracy may be inferred through circumstantial evidence. United States v. Faulkenberry, 614
F.3d 573, 584 (6th Cir. 2010). And the agreement need not be explicit; rather, a “tacit or mutual
understanding among the parties” will suffice. Potter, 927 F.3d at 453 (citation omitted).
The prosecution offered ample evidence to prove Shields’ participation in the
methamphetamine conspiracy. We begin with the testimony of his alleged coconspirators. First,
Eric Avendano testified that he and his brothers shipped pounds of meth to the Memphis area.
This was corroborated by federal investigators, who seized two packages destined for Memphis
that contained large quantities of the drug and were linked to the Avendanos. Second, Fred
McCaster—a known close associate of both the Avendanos and Shields—testified that he knew
the Avendanos were providing Shields with crystal meth. Third, Timothy Wright testified that
Shields told him he had received “ice water” or “meth” from the Avendanos.
Tack on to that the evidence from Shields’ cell phone. Shields requested “four bottles” of
“[g]lass” from a Los Angeles-area number. Eric Avendano testified that “[g]lass is meth” and that
a “bottle” was a code word used in his organization to refer to a pound of meth. He rejected
defense counsel’s suggestion that a “bottle” might refer to other drugs, such as marijuana. On top
of this specific conversation, Shields sent several other text messages to various numbers

-14-

14a

Case: 19-6428

Document: 54-2

Filed: 04/06/2021

Page: 15

Nos. 19-6428/6429, United States v. Shields
concerning “bottles.” The proof against Shields regarding the methamphetamine conspiracy was
therefore strong, and a rational jury could have found him guilty beyond a reasonable doubt.
Shields offers two responses; neither persuade us. First, he says that the text-message
evidence was not properly authenticated, insisting that the government didn’t offer anything
connecting the messages to Shields. Because he did not object on this point, we review for plain
error. See Collins, 799 F.3d at 576. Even under de novo review, however, we would find that the
government “produce[d] evidence sufficient to support a finding” that the text messages were sent
by Shields. Fed. R. Evid. 901(a).
For one, the texts were extracted from the iPhone found in Shields’ pocket during the
execution of a valid search warrant. Moreover, there was circumstantial evidence linking Shields
to the messages on the phone. For example, an incoming message instructed the recipient to
deposit $9,000 into the “Aurora Gran” account at “B-O-A.” The recipient responded on January
16, 2015 that he had done so. Bank records and surveillance footage from a Memphis-area Bank
of America showed Shields depositing $9,000 into an account for Aurora Gran on that same date,
exactly as instructed. Similarly, outgoing messages from the phone reported $9,000 going into an
account for “Vanessa Sanchez.” Bank records and surveillance footage likewise showed Shields
depositing $9,000 into that account. In light of this evidence, a reasonable factfinder could
conclude that Shields was the one sending the text messages from the phone seized from his
pocket.
Second, Shields argues that there was no evidence that the Los Angeles number on the
other side of the “four bottles” of “glass” conversation was held by a member of the Avendano
organization. We disagree. Based on other evidence introduced at trial, a reasonable jury could
believe just that. Eric Avendano testified that “bottles” was a code word that he and his brothers

-15-

15a

Case: 19-6428

Document: 54-2

Filed: 04/06/2021

Page: 16

Nos. 19-6428/6429, United States v. Shields
used to refer to a pound of meth, thereby providing circumstantial evidence of identity. Eric also
explained that to receive payment for their drug shipments, the Avendanos would text the names
and numbers associated with Bank of America and Wells Fargo accounts to their associates in
Memphis. That is consistent with what occurred in the exchange here. What’s more, Eric even
recognized the account names referenced in Shields’ conversation, as those were some of the ones
that he and his brothers used to funnel money back to California.
Despite this evidence, Shields makes much of the fact that Eric Avendano could not
identify the Los Angeles number in the text exchange as belonging to one of his brothers. But this
comes as little surprise. Eric explained that the Avendanos would each use three cell phones at a
time with Los Angeles area codes to conduct their business, and they would throw all those phones
away each month to avoid being tracked. The fact that Eric could not identify one of those tendigit numbers more than two years later while on the stand does not change our conclusion. A
reasonable factfinder could still believe that the counterparty to Shields’ meth deal was a member
of the Avendano conspiracy. Accordingly, there was sufficient evidence to find Shields guilty
beyond a reasonable doubt on the methamphetamine conspiracy charge. We affirm the jury’s
conviction on Count 1.
C.
We now confront Shields’ challenge to his conviction on Count 6. The prosecution could
prove this charge by showing that Shields: (1) knowingly or intentionally, (2) possessed, (3) with
the intent to distribute, (4) heroin. 21 U.S.C. §§ 812(c) & sched. I(b)(10), 841(a)(1). But “[p]roof
of actual possession with intent to distribute is not necessary to sustain a conviction under 21
U.S.C. § 841(a)(1) as long as there is proof, beyond a reasonable doubt, that a defendant aided and
abetted the criminal venture.” United States v. Clark, 928 F.2d 733, 736 (6th Cir. 1991); see 18

-16-

16a

Case: 19-6428

Document: 54-2

Filed: 04/06/2021

Page: 17

Nos. 19-6428/6429, United States v. Shields
U.S.C. § 2. “In proscribing aiding and abetting, Congress used language that ‘comprehends all
assistance rendered by words, acts, encouragement, support, or presence.’” Rosemond v. United
States, 572 U.S. 65, 73 (2014) (quoting Reves v. Ernst & Young, 507 U.S. 170, 178 (1993)).
On appeal, Shields argues that his aiding-and-abetting conviction cannot stand because
there was no evidence that Jeremy Davis—the person Shields allegedly assisted—ever possessed
any heroin on or about September 17, 2015 (the date listed in the indictment). That is not, however,
what Shields argued below. To the contrary, in his Rule 29 motion, Shields’ counsel took the
opposite position and explicitly stated that he thought “the government ha[d] proven that Mr. Davis
possessed heroin with intent to distribute” on September 17, 2015. He then asserted a different
theory of insufficiency altogether—“that the evidence [didn’t] show that Mr. Shields was involved
with [the possession] or that he aided and abetted Mr. Davis in possessing that heroin with intent
to distribute.” And his post-trial motion for a judgment of acquittal also failed to press the
argument he now makes on appeal.
“Although specificity of grounds is not required in a Rule 29 motion, where a Rule 29
motion is made on specific grounds, all grounds not specified are waived[.]” United States v.
Dandy, 998 F.2d 1344, 1356–57 (6th Cir. 1993) (internal citation omitted). This is because “[t]he
specification of grounds in the motion is an indication that counsel has evaluated the record and
has these particular reasons for his motion.” Id. at 1357 (citation omitted). In that case, we “do[]
not review the omitted grounds at all; i.e., we deem them completely waived.” United States v.
Martinez-Lopez, 747 F. App’x 326, 331 (6th Cir. 2018); see also, e.g., United States v. Osborne,
886 F.3d 604, 618 (6th Cir. 2018); United States v. Winkle, 477 F.3d 407, 415 (6th Cir. 2007);
United States v. Wesley, 417 F.3d 612, 617 (6th Cir. 2005). Shields has therefore waived his new
argument.

-17-

17a

Case: 19-6428

Document: 54-2

Filed: 04/06/2021

Page: 18

Nos. 19-6428/6429, United States v. Shields
Osborne is particularly instructive on this point. There, as in this case, the defendant moved
for a judgment of acquittal in the district court. Osborne, 886 F.3d at 618. In that motion, the
defendant raised particular grounds for acquittal. See id. But he did not advance his appellate
theory—that the evidence failed to show that another individual committed an element of the
crime, and “thus Osborne could not have aided and abetted him in that crime.” Id. “Because
Osborne made a motion for judgment of acquittal on specified grounds, and those grounds did not
include the claim that [was raised] on appeal,” we held that he had waived his appellate argument.
Id. So too here. As in Osborne, Shields is arguing that there was no evidence that Davis completed
the crime of possession with intent to distribute heroin and thus Shields could not have aided and
abetted Davis in its commission. Since this is distinct from the theory of insufficiency asserted
below, Shields “cannot now raise this argument.” Id. We affirm as to Count 6.
V.
Shields also claims that the district court erred in issuing a joint-possession instruction
because there was no evidence that Davis possessed the heroin. See generally United States v.
James, 819 F.2d 674, 675 (6th Cir. 1987) (“[A]n instruction should not be given if it lacks
evidentiary support . . . .” (citation omitted)). Shields did not object on this ground, so we review
only for plain error. See United States v. Pearce, 912 F.2d 159, 163 (6th Cir. 1990); Fed. R. Crim.
P. 30(d).
Shields has not shown plain error. The instruction was neither “prejudicial” nor did it
“result[] in a miscarriage of justice.” United States v. Treadway, 328 F.3d 878, 883–84 (6th Cir.
2003) (citing United States v. Olano, 507 U.S. 725, 735–36 (1993)). Shields contends that the
instruction prejudiced him because it invited the jury to believe it could convict him based on joint
possession with the law-enforcement officer who intercepted the package containing heroin. We

-18-

18a

Case: 19-6428

Document: 54-2

Filed: 04/06/2021

Page: 19

Nos. 19-6428/6429, United States v. Shields
find that theory implausible. The government argued to the jury that it was Shields and Davis who
shared a mutual interest in the package. Unsurprisingly, it never suggested that Shields might have
“share[d] actual or constructive possession” of heroin “together” with a government official who
was investigating him and whom he had never met. R. 493, PageID 2346 (jury instruction). We
think it highly unlikely that the jury even contemplated such a possibility. We are therefore
confident that the joint-possession instruction had no effect on the jury’s verdict and did not affect
Shields’ “substantial rights.” Fed. R. Crim. P. 52(b); see Olano, 507 U.S. at 734–35. There was
no plain error.
VI.
We turn our attention finally to Shields’ claims that the district court imposed a
procedurally unreasonable sentence. Procedural reasonableness requires the sentencing court to
“properly calculate the guidelines range, treat that range as advisory, consider the sentencing
factors in 18 U.S.C. § 3553(a), refrain from considering impermissible factors, select the sentence
based on facts that are not clearly erroneous, and adequately explain why it chose the sentence.”
United States v. Rayyan, 885 F.3d 436, 440 (6th Cir. 2018) (citing Gall v. United States, 552 U.S.
38, 51 (2007)).
A.
Shields first contends that the district court erred in its factual determination of the quantity
of drugs attributable to him. We review that determination for clear error. See United States v.
Walton, 908 F.2d 1289, 1300–1301 (6th Cir. 1990). We will find clear error only if, after
reviewing the full record, we are “left with the definite and firm conviction that a mistake has been
committed.” United States v. U.S. Gypsum Co., 333 U.S. 364, 395 (1948).

-19-

19a

Case: 19-6428

Document: 54-2

Filed: 04/06/2021

Page: 20

Nos. 19-6428/6429, United States v. Shields
The Sentencing Guidelines advise that a defendant is accountable for “all acts and
omissions” that were: “(i) within the scope of the jointly undertaken criminal activity, (ii) in
furtherance of that criminal activity, and (iii) reasonably foreseeable in connection with that
criminal activity.” U.S.S.G. § 1B1.3(a)(1)(B). In a drug-conspiracy case, this includes “all
quantities of contraband that were involved in transactions carried out” by participants in the
conspiracy, including by the defendant himself. Id. § 1B1.3(a)(1)(B) cmt. n.3(D). “A drug
quantity need only be established by a preponderance of the evidence, and an estimate will suffice
so long as it errs on the side of caution and likely underestimates the quantity of drugs actually
attributable to the defendant.” United States v. Anderson, 526 F.3d 319, 326 (6th Cir. 2008).
Accordingly, a district court may extrapolate from seized drugs information about other drugs
involved in the case. See United States v. Jackson, 470 F.3d 299, 310–11 (6th Cir. 2006); United
States v. Price, 761 F. App’x 568, 571 (6th Cir. 2019). But it must “provide an explanation for its
decision (not merely a rote extrapolation from the few to the many or an unsupported estimation).”
United States v. Rodriguez-Iznaga, 575 F. App’x 583, 588 (6th Cir. 2014); see also United States
v. Henley, 360 F.3d 509, 515 (6th Cir. 2004) (“In determining whether a district court’s calculation
of drug quantity is clearly erroneous, a key issue is the extent to which the court identified the
evidence on which it relied in making that calculation.”).
The district court found that Shields was responsible for 12.5 kilograms of heroin, 1,814
grams (four pounds) of methamphetamine, and 108.7 kilograms of marijuana, for a total of just
under 49,000 kilograms of converted drug weight. Because this was between 30,000 and 90,000
kilograms, the court found that Shields’ base offense level was 36, in accordance with the
Guidelines’ Drug Quantity Table. See U.S.S.G. § 2D1.1(c)(2).

-20-

20a

Case: 19-6428

Document: 54-2

Filed: 04/06/2021

Page: 21

Nos. 19-6428/6429, United States v. Shields
The methamphetamine determination alone was sufficient to sustain that conclusion.2 The
Drug Quantity Table provides for a base offense level of 36 when the defendant is responsible for
1.5 kilograms or more of at least 80% pure methamphetamine. See id. § 2D1.1(c) & n.(B)–(C).
Text messages introduced at trial showed that in January 2015, Shields asked for “four bottles” of
“glass.” Avendano testified that “bottles of glass” referred to “pounds of meth.” And he confirmed
that “when bottles are mentioned, that’s methamphetamine[.]” Faced with this evidence, Shields’
trial counsel conceded at the sentencing hearing that his client was responsible for “4 pounds” or
“1,814 grams of methamphetamine.” Nevertheless, counsel protested that the government had no
evidence as to the purity of the methamphetamine that Shields ordered in the text exchange, as that
particular package was never seized. The government, however, pointed to other packages seized
in 2015 that were also sent to Memphis by the Avendano organization. Lab testing revealed that
those packages contained methamphetamine ranging from 94 to 100 percent purity. The district
court found that this was “pretty strong proof” that “the methamphetamine sent from California in
connection with Mr. Shields was actual methamphetamine” too, as opposed to some diluted
mixture.
We see no clear error in that conclusion. It was Shields’ obligation to “produce some
evidence that call[ed] the reliability or correctness of the alleged [purity] into question.” United
States v. Lang, 333 F.3d 678, 681 (6th Cir. 2003) (citation omitted). And “[a]side from bald
assertions, [he] failed to produce any evidence” to refute that assessment. United States v. Adkins,
729 F.3d 559, 570 (6th Cir. 2013). Not to mention, the district court’s estimate of the total weight
attributable to Shields was conservative. The government also pointed to another package that

For this reason, we need not address Shields’ argument related to the amount of heroin
attributable to him. Either way, his base offense level would be 36.
2

-21-

21a

Case: 19-6428

Document: 54-2

Filed: 04/06/2021

Page: 22

Nos. 19-6428/6429, United States v. Shields
was mailed to an address Shields had provided to a Los Angeles number in relation to the sending
of “bottles.” Though the Postal Service discovered nine packages sent to that same location, the
district court ignored all of them in arriving at its final figure of just four pounds of
methamphetamine. And it further ignored any evidence regarding the pounds of meth sent to
Shields’ coconspirators. The district court’s determination of the quantity of drugs attributable to
Shields was not clearly erroneous.
B.
We next consider Shields’ claim that his counsel rendered ineffective assistance in
withdrawing an objection to a two-level increase for possession of a firearm. In general, “a
defendant may not raise ineffective assistance of counsel claims on direct appeal, since there has
not been an opportunity to develop and include in the record evidence bearing on the merits of the
allegations.” United States v. Ledbetter, 929 F.3d 338, 364 (6th Cir. 2019) (citation omitted).
Such claims are generally best raised in a motion filed under 28 U.S.C. § 2255, which gives the
claimant access to “the forum best suited to developing the facts necessary to determining the
adequacy of representation.” Massaro v. United States, 538 U.S. 500, 505 (2003). This case is no
exception. The trial record is “incomplete or inadequate” to assess either the reasonableness of
counsel’s actions at the time or any prejudice that may have resulted therefrom. Id. All the record
shows is that counsel raised but then withdrew an objection to the firearm enhancement with no
explanation. Without “additional factual development,” we have “no way of knowing” why
counsel did so. Id. We therefore decline to address the merits of Shields’ claim on this direct
appeal.

-22-

22a

Case: 19-6428

Document: 54-2

Filed: 04/06/2021

Page: 23

Nos. 19-6428/6429, United States v. Shields
C.
Lastly, Shields contends that the district court failed to credit him for the 42-month prison
sentence he had already completed for a related felon-in-possession charge. At the sentencing
hearing, the court made clear that it intended the sentence for the present case to run
“concurrent[ly]” with the felon-in-possession sentence and that Shields would “have credit back
to April of 2016.” The court also stated that due to this credit, Shields would have “about 16 years
to go” on his sentence, even though the “total sentence [was] 240 months.” The government
concedes that the district court’s “clear” intention was to give Shields credit “for his time served”
on the related charge. Shields nonetheless protests that the written judgment makes no mention of
this “credit back” and only states that the sentences would run “concurrent to each other.” To
correct what he sees as an ambiguity in his sentence, he asks this court to vacate his sentence and
remand for resentencing.
We need not do so. Like both of the parties, we agree that the sentencing transcript here
plainly evinces the district court’s intent to provide Shields with a reduction in his sentence for
time served. This conclusion is reinforced by the docket entry for the written sentence, which says
that “[t]he Court Ordered the defendant received credit from 4/8/2016 through 12/3/2019.” Thus,
even if the written sentence conflicted with the district court’s oral sentence, “[t]he clarity of the
oral sentence . . . means that we must consider the oral sentence as controlling on appeal.” United
States v. Penson, 526 F.3d 331, 334 (6th Cir. 2008). And because the district court’s intent was
clear, we need not remand for clarification. We take this opportunity to confirm that Shields’ total
sentence is 240 months minus the time he served for the related felon-in-possession case.
***
For the foregoing reasons, we AFFIRM.

-23-

23a

Case 2:17-cr-20103-TLP Document 319 Filed 02/19/19 Page 1 of 10

PageID 594

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TENNESSEE
WESTERN DIVISION
UNITED STATES OF AMERICA,
Plaintiff,
v.
DONNELL TOUSANT, MONTRELL
BENARD, JOHN SHIELDS,
Defendants.

)
)
)
)
)
)
)
)
)
)

No. 2:17-cr-20103-TLP-1

ORDER DENYING DEFENDANT’S MOTION TO DISMISS ON DOUBLE JEOPARDY
GROUNDS

Defendants move to dismiss this indictment because they already pleaded guilty to what
they allege to be the same conspiracy count in another case.1 (ECF No. 291 and 302.) So the
pending conspiracy counts here allegedly violate the double jeopardy clause of the 5th
Amendment. The Court held a hearing on the issue and announced its decision to deny the
motion. (ECF No. 316.) The Court now explains its reasoning for that ruling. For the reasons
below, the Court DENIES the Defendants’ motion to dismiss the indictment.
BACKGROUND
This case arises from an investigation into a street gang by the name of Memphis Peda
Roll Mafia (“PRM”). (ECF No. 10 at PageID 49.) PRM is allegedly a subset of the Grape Street
Crips of California, “a national street gang that originated in the Jordan Downs housing projects
Counsel for Defendants Montrell Benard and John Shields announced their desire to join in the
Motion. The Court allowed them to do so. At the oral argument, counsel for Mr. Tousant
argued on behalf of all defendants. (ECF No. 316.)
1

24a

Case 2:17-cr-20103-TLP Document 319 Filed 02/19/19 Page 2 of 10

PageID 595

in the Watts area of Los Angeles, California.” (ECF No. 274 at PageID 510). PRM allegedly
operates mainly in Memphis, Tennessee.2 (Id.) The investigation, which began in 2013, led to
two indictments charging several defendants with conspiracies to possess with intent to distribute
various drugs, including marijuana, heroin, methamphetamine, cocaine, hydrocodone and
oxycodone. (ECF No. 10 and United States v. Wright, Case Number 17-20151, ECF No. 3 at
PageID 4.) The government separates the cases based in part on two distinct drug suppliers.
(ECF No. 312 at PageID 579.) For example, the government alleges here that brothers, Calvin
and Eric Avendano, are the primary suppliers of cocaine, methamphetamine and heroin for the
PRM. (Id. at PageID 580.) Meanwhile, the government alleges in another case (Case Number
17-20151) that Reginald Wright, Jr., is the primary supplier of marijuana, hydrocodone and
oxycodone. (Id. at PageID 580.)
The government charged Donnell Tousant (“Defendant”) in both cases.3 In three counts
in the Wright indictment, the government alleged that Defendant conspired to distribute
marijuana, hydrocodone and oxycodone. (Id. at PageID 579.) In the second superseding
indictment in the Avendano case, the government alleges that Defendant conspired to distribute
methamphetamine and a substantive count of possession with intent to distribute
methamphetamine.4 (ECF No. 274 at Page ID 513-14.)

The government has brought three indictments here and they are listed in the docket as ECF
Nos. 4, 10, and 274.
3
Because Tousant is the primary movant here, the Court will focus on the charges against him to
explain its reasoning. The same reasoning applies to Defendants Shields and Benard.
4
In the first superseding indictment in the Avendano case, the government named Defendant in
four counts alleging conspiracy to distribute cocaine, heroin and methamphetamine and a
substantive count of possession with intent to distribute methamphetamine. (ECF No. 312 at
PageID 579.) So the Second Superseding indictment reduced the number of counts for Tousant.
2

2

25a

Case 2:17-cr-20103-TLP Document 319 Filed 02/19/19 Page 3 of 10

PageID 596

After pleading guilty to count one, conspiracy to distribute marijuana, in the Wright case
(Wright, Case Number 17-20151, ECF No. 503.)5, Defendant moved to dismiss the Avendano
indictment arguing that it violates double jeopardy. (ECF No. 291.) Defendant contends that the
second superseding indictment in Advendano puts him in double jeopardy because he already
pleaded guilty to conspiracy to distribute narcotics in the Wright case. (Id. at PageID 550.)
Defendant claims that the Wright case and the Avendano case charge him for engaging in the
same conspiracy. (Id. at PageID 550-53.)
Defendant focuses on the overlapping time frame of the two conspiracies, the
overlapping co-defendants, and the fact that both conspiracies sent drugs through the mail from
California to Memphis. (ECF No. 291 at PageID 550.) In fact, Defendant points out that one of
the drug shipments in the Avendano Indictment contained both marijuana and
methamphetamine.6 (Id. at PageID 550.) Defendant relies on this fact to prove that he
participated in a single conspiracy—one where he sent both marijuana and methamphetamine.7
(Id. at PageID 550.)
Despite some overlap in time, some common co-defendants and similar distribution
methods in the two cases, the government argues that Defendant participated in two separate
conspiracies—the Wright marijuana conspiracy and the Avendano methamphetamine conspiracy.
(ECF No. 312 at PageID 582.) The government focuses on the different drugs involved, the
different drug suppliers, the different locations where the suppliers get their drugs, the different

The Court entered an order dismissing counts 2 and 3 for Tousant, Benard and Shields. (Wright
(Case No. 17-20151) ECF No. 495.)
6
The government disputes that the shipment in question contains marijuana from Wright.
7
The Court denied Defendant’s request for an evidentiary hearing because the parties did not
disagree about the facts. They only disagreed about the legal implications of those facts.
Additionally, the indictments and the parties’ briefs provided sufficient evidence from which to
find by the preponderance of the evidence the existence of two separate conspiracies.
5

3

26a

Case 2:17-cr-20103-TLP Document 319 Filed 02/19/19 Page 4 of 10

PageID 597

co-defendants, the different time periods, and the different money laundering techniques in the
two cases. (Id. at PageID 580.) The government argues these differences validate its
determination that Defendant participated in two separate conspiracies.
LEGAL STANDARD
When a Defendant moves to dismiss an indictment on double jeopardy grounds, he bears
the burden “to show that a single conspiracy exists.” In re Grand Jury Proceedings, 797 F.2d
1377, 1380 (6th Cir. 1986). That said, since “the government typically has better access to
evidence, that burden is satisfied if the defendants advance a non-frivolous or prima facie
showing of a single conspiracy.” Id. If the defendant is successful, the “burden then shifts to the
government to show separate conspiracies by a preponderance of the evidence.” Id.
“In a conspiracy case it is the agreement which forms the nucleus of the offense.” United
States v. Sinito, 723 F.2d 1250, 1256 (6th Cir. 1984). Thus, “[a] single agreement to commit
several crimes constitutes one conspiracy.” United States v. Vichitvongsa, 819 F.3d 260, 273
(6th Cir. 2016). But separate conspiracies exist if there are “multiple agreements to commit
separate crimes . . . .” Id. (quoting United States v. Broce, 488 U.S. 563, 570–71 (1989)). To
determine whether “two conspiracies arise from a single agreement,” the Sixth Circuit applies
the “Totality of Circumstances Test.” Sinito, 723 F.2d at 1256. The test requires the trial court
to consider these factors:
(1) time; (2) persons acting as co-conspirators; (3) the statutory offenses charged in the
indictments; (4) the overt acts charged by the government or any other description of the
offenses charged which indicates the nature and scope of the activity which the
government sought to punish in each case; and (5) places where the events alleged as part
of the conspiracy took place.
Id.

4

27a

Case 2:17-cr-20103-TLP Document 319 Filed 02/19/19 Page 5 of 10

PageID 598

ANALYSIS
The Sixth Circuit requires the Court to apply the five Sinito factors to determine whether
the Wright conspiracy and Avendano conspiracy are separate conspiracies or one, unified
conspiracy.
I.

Time
The first factor is the alleged time frame of the two conspiracies in the Wright conspiracy

and the Avendano conspiracy. Both conspiracy counts allege “[b]eginning at a time unknown to
the grand jury but at least from in or about March 2013” but, the conspiracy in Wright extended
until May 2017, one year and eight months past the Avendano conspiracy. (ECF No. 274 at
PageID 513); (United States v. Wright, Case Number 17-20151, ECF No. 3 at PageID 4.) And
the government points out that the starting date reflects the beginning of the PRM investigation
in March 2013. The conspiracies do overlap in time but not exactly.
Even still, an “[o]verlap in time alone is ‘not conclusive evidence of a single
conspiracy.’” United States v. Vichitvongsa, 819 F.3d 260, 273 (6th Cir. 2016) (quoting United
States v. Lacey, 983 F.2d 1070 (6th Cir. 1993)). It is possible for multiple criminal agreements
to exist with the same overlapping time frames and overlapping personnel when the scheme
involves the distribution of drugs. United States v. Lacey, 782 F.Supp. 66, 67–68 (E.D. Mich.
1992), aff’d, United States v. Lacey, 983 F.2d 1070 (6th Cir. 1993); see also United States v.
Okolie, 3 F.3d 287, 290 (8th Cir. 1993) (finding that a “separate and ongoing agreement” existed
despite the defendant being charged with two overlapping conspiracies because one of the
conspiracies “continued for eight months” past the conclusion of the other conspiracy).
On balance, because the Wright conspiracy operated well longer than the Avendano
conspiracy, this factor weighs slightly in favor of the government.

5

28a

Case 2:17-cr-20103-TLP Document 319 Filed 02/19/19 Page 6 of 10

II.

PageID 599

Persons Involved
The government charged some of the same co-defendants in both cases. In total, five co-

defendants overlap between the marijuana conspiracy count of the Wright indictment and the
methamphetamine count of Avendano. This leaves two of the defendants in the Avendano
conspiracy who were not charged in Wright. But in Wright thirteen defendants were not also
charged in Avendano. Courts also include unindicted individuals who “were involved in the
activities charged under each indictment” in this factor. United States v. Wheeler, 535 F.3d 446,
451 (6th Cir. 2008). The Sixth Circuit in United States v. Meda, distinguished between the
individuals who play minor roles and those who are central characters in each indictment. 812
F.3d 502, 509 (6th Cir. 2015). Thus, where “the central figures are different, or serve different
functions, it is less likely that there is a single agreement.” Id. (quoting United States v. ElMezain, 664 F.3d 467, 547 (5th Cir. 2011)).
The Avendano brothers and Reginald Wright were central characters in their respective
conspiracies. They supplied the drugs. The government also contends that Avendano was
aggressive in his role. He traveled to Memphis and threatened his co-conspirators for failing to
pay him and had them deposit funds in accounts using Hispanic names. (ECF No. 312 at PageID
580.) Meanwhile Wright did not travel to Memphis or resort to violent threats in his conspiracy.
Wright had his operatives deposit funds in his father’s bank account. The government
emphasizes that the defendants never comingled any of the funds from the Wright conspiracy
and the Avendano conspiracy. (Id. at PageID 580-81.) Besides, Wright’s primary role was to
source marijuana from dispensaries in southern California to be sent through the mail, while
Avendano allegedly shipped an assortment of harder drugs to Memphis, Tennessee. (Id.) The
government also contends that Wright and Avendano had no connection with each other. (Id.)

6

29a

Case 2:17-cr-20103-TLP Document 319 Filed 02/19/19 Page 7 of 10

PageID 600

For these reasons, this factor of common defendants also slightly tips in the government’s
favor.
III.

Statutory Offenses Charged
Defendant argues that, because the government charged him with violations of 21 U.S.C

§ 841 in both indictments, this factor favors finding a single conspiracy. Even so, the underlying
statutory offense in the Wright conspiracy is based on possession of marijuana with the intent to
distribute, while the Avendano conspiracy is based on the possession of methamphetamine with
the intent to distribute. The Sixth Circuit in Wheeler, recognized that “even if ‘the statutory
offenses charged are the same . . . one can certainly enter two conspiracies to commit the same
type of crime.’” 535 F.3d at 456 (quoting United States v. Ledon, 49 F.3d 457, 460 (8th Cir.
1995)). Even though both indictments allege violations of the same statute, the fact that the
drugs in each conspiracy were different pushes this factor in favor of the government.
IV.

Nature and Scope
The Sixth Circuit gives greater weight to this factor. See Vichitvongsa, 819 F.3d at 273

(“The scope and nature of the conduct charged . . . is the ‘most significant.’”) (quoting United
States v. Goff, 400 F. App’x. 1, 9 (6th Cir. 2010); see also Wheeler, 535 F.3d at 455 (stating the
fourth factor is the “most significant[]” of the five factors). Defendant argues that the scope and
nature of the Wright and Avendano conspiracies suggest that Defendant was involved in one,
large conspiracy to distribute and sell various drugs because one of the packages he sent
contained both marijuana and methamphetamine. This argument is not persuasive because
Defendant acknowledged that the government did not charge the same event in both
conspiracies. Instead, the government alleges that Defendant sent the referenced package as part
of the Avendano case only. The government alleges that Avendano dabbled in the distribution of

7

30a

Case 2:17-cr-20103-TLP Document 319 Filed 02/19/19 Page 8 of 10

PageID 601

marijuana from time to time. Thus, Defendant sent the marijuana in the package for Avendano,
not Wright.
Even if that package contained marijuana from Wright and methamphetamine from
Avendano, this factor still favors the government. The Sixth Circuit in Wheeler, found that the
scope and nature of conspiracies differed where the same Defendant was indicted in two cases,
one for conspiracy to distribute cocaine and methamphetamine and another for conspiracy to
distribute cocaine, methamphetamine, marijuana, LSD and valium. 535 F.3d at 457. The court
found that the latter indictment “charged a conspiracy of a wider scope and of a different nature”
than the former indictment. Id. Thus, many conspiracies can exist whether the same drugs or
different drugs are involved.
The Wright conspiracy involved marijuana and pharmaceutical drugs while the Avendano
conspiracy involves harder drugs, such as cocaine, heroin and methamphetamine. Furthermore,
the scope of the Wright and Avendano indictments vary greatly beyond the type of drugs
involved. The source of the drugs in each conspiracy suggests two conspiracies. The Avendano
brothers obtained their drugs from the Mexican cartel and then members of the Avendano
conspiracy sent them to Memphis, Tennessee. (ECF No. 312 at PageID 580.) The Wright
coconspirators obtained the marijuana from dispensaries in California. (Id. at PageID 580.)
Thus, this points to two separate conspiracies. See United States v. Toaz, 59 F App’x. 94, 102
(6th Cir. 2003) (finding that the nature and scope of two drug conspiracies different when the
conspiracies “involved different suppliers, different customers and different co-conspirators.”).
Even more, the conspiracies differed greatly. As discussed above, the government will
present evidence that Avendano was more aggressive in carrying out his conspiracy. (ECF No.
312 at No. 581.) He allegedly traveled to Tennessee and threatened to hire a hitman if his co-

8

31a

Case 2:17-cr-20103-TLP Document 319 Filed 02/19/19 Page 9 of 10

PageID 602

conspirators failed to pay him. (Id. at No. 581.) On the other hand, the government has no
evidence that Wright resorted to any violent threats. (Id. at No. 581.) The government also
contends that the Avendano conspiracy used encrypted communications by Blackberry
Messenger. (Id. at No. 585.) This evidence suggests two different conspiracies. Thus, this
factor weighs strongly in favor of the government.
V.

Location
The Wright conspiracy involved the shipment of drugs from California to Memphis and

the Avendano conspiracy also involved the shipment of drugs from California to Memphis. The
government concedes that this factor partially favors the Defendant because of the overlapping
location of the conspiracies. (Id. at PageID 585.) That said, this factor is not persuasive here
because the suppliers reside and operate in different parts of southern California and, as
mentioned above, there is no alleged connection between the Avendano brothers and Wright.
CONCLUSION
After reviewing the five Sinito factors and considering the totality of circumstances here,
the Court holds that the government as satisfied its burden of proving by a preponderance of
evidence the existence of two separate conspiracies. The Court therefore DENIES Defendant’s
motion to dismiss the Indictment on double jeopardy grounds.

SO ORDERED, this 19th day of February, 2019.

s/Thomas L. Parker
THOMAS L. PARKER
UNITED STATES DISTRICT JUDGE

9

32a

Case 2:17-cr-20103-TLP Document 319 Filed 02/19/19 Page 10 of 10

10

33a

PageID 603

Case 2:17-cr-20103-TLP Document 479 Filed 12/03/19 Page 1 of 8
AO 245B (Rev. )

PageID 1147

Judgment in a Criminal Case
Sheet 1

UNITED STATES DISTRICT COURT
Western District
of of
Tennessee
__________
District
__________
)
UNITED STATES OF AMERICA
JUDGMENT IN A CRIMINAL CASE
)
v.
)
)
-2+16+,(/'6
Case Number: &57/3
)
DND -RKQ -RKQ
)
USM Number: 
DND -RKQ -XDQ
)
$QGUH % 0DWKLV &-$
)
Defendant’s
Attorney
)

THE DEFENDANT:

G pleaded guilty to count(s)
G pleaded nolo contendere to count(s)
which was accepted by the court.

✔ was found guilty on count(s)
G

   DQG  RI WKH 6HFRQG 6XSHUVHGLQJ ,QGLFWPHQW RQ 

after a plea of not guilty.
The defendant is adjudicated guilty of these offenses:
Title & Section

Nature of Offense

Offense Ended

 86&  

&RQVSLUDF\ WR 3RVVHVV ZLWK ,QWHQW WR 'LVWULEXWH DQG

 86&   D 

'LVWULEXWLRQ RI +HURLQ DQG 0HWKDPSKHWDPLQH



Count

 

 86&   E  $


The defendant is sentenced as provided in pages 2 through
the Sentencing Reform Act of 1984.

of this judgment. The sentence is imposed pursuant to

G The defendant has been found not guilty on count(s)
G Count(s)

G is

G are dismissed on the motion of the United States.

It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name, residence,
or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay restitution,
the defendant must notify the court and United States attorney of material changes in economic circumstances.


Date of Imposition of Judgment

V 7KRPDV / 3DUNHU
Signature of Judge

7+20$6 / 3$5.(5 81,7(' 67$7(6 ',675,&7 &2857
Name and Title of Judge


Date

34a

Case 2:17-cr-20103-TLP Document 479 Filed 12/03/19 Page 2 of 8
AO 245B (Rev. )

PageID 1148

Judgment in a Criminal Case
Sheet 1A
Judgment—Page

DEFENDANT: -2+16+,(/'6 DND -RKQ -RKQ DND -RKQ -XD
CASE NUMBER: &57/3



of

ADDITIONAL COUNTS OF CONVICTION
Title & Section

Nature of Offense

Offense Ended

 86&  D  

3RVVHVVLRQ ZLWK ,QWHQW WR 'LVWULEXWH DQG 'LVWULEXWLRQ RI

 86&  E  $ 

+HURLQ $LGLQJ DQG $EHWWLQJ

 86&  K 

&RQVSLUDF\ WR &RPPLW 0RQH\ /DXQGHULQJ

 86&  D 
$ L  DQG
 86&  D 
% L

35a

Count











Case 2:17-cr-20103-TLP Document 479 Filed 12/03/19 Page 3 of 8

PageID 1149

AO 245B (Rev. ) Judgment in Criminal Case
Sheet 2 — Imprisonment
Judgment — Page



of



DEFENDANT: -2+16+,(/'6 DND -RKQ -RKQ DND -RKQ -XD
CASE NUMBER: &57/3

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a total
term of:
 PRQWKV 7KH 6HQWHQFH VKDOO EH DOORFDWHG DV IROORZV &RXQW   PRQWKV RQ WKH XQGHUO\LQJ RIIHQVH  PRQWKV RQ HQKDQFHPHQW XQGHU  86& 
 &RXQW   PRQWKV RQ XQGHUO\LQJ RIIHQVH  PRQWKV RQ   HQKDQFHPHQW &RXQW   PRQWKV RQ XQGHUO\LQJ RIIHQVH  PRQWKV RQ  
HQKDQFHPHQW DQG &RXQW   PRQWKV RQ XQGHUO\LQJ RIIHQVH  PRQWKV RQ   HQKDQFHPHQW 6HQWHQFHV RQ XQGHUO\LQJ RIIHQVHV DUH FRQFXUUHQW WR HDFK
RWKHU DQG &DVH 1XPEHUV  EXW FRQVHFXWLYH WR WKH PRQWK VHQWHQFH IRU WKH   HQKDQFHPHQW (DFK PRQWK VHQWHQFH XQGHU WKH
 86&   HQKDQFHPHQW LV FRQFXUUHQW ZLWK HDFK RWKHU 7KH 7RWDO 6HQWHQFH LV WKHUHIRUH  PRQWKV

✔ The court makes the following recommendations to the Bureau of Prisons:
G
 7KH GHIHQGDQW EH DOORZHG WR SDUWLFLSDWH LQ WKH 5'$3 3URJUDP
 7KH GHIHQGDQW EH LQFDUFHUDWHG DW D IDFLOLW\ LQ RU QHDU WKH 0HPSKLV 71 DUHD

✔ The defendant is remanded to the custody of the United States Marshal.
G

G The defendant shall surrender to the United States Marshal for this district:
G at

G a.m.

G p.m.

on

.

G as notified by the United States Marshal.
G The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
G before 2 p.m. on

.

G as notified by the United States Marshal.
G as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on
aW

to
, with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

36a

Case 2:17-cr-20103-TLP Document 479 Filed 12/03/19 Page 4 of 8

PageID 1150

AO 245B (Rev. ) Judgment in a Criminal Case
Sheet 3 — Supervised Release
Judgment—Page



of



DEFENDANT: -2+16+,(/'6 DND -RKQ -RKQ DND -RKQ -XD
CASE NUMBER: &57/3

SUPERVISED RELEASE
Upon release from imprisonment, you will be on supervised release for a term of :

 \HDUV  \HDUV DV WR &RXQWV   DQG   \HDUV DV WR &RXQW  WR UXQ FRQFXUUHQW WR HDFK RWKHU DQG FRQFXUUHQW WR WKH
6HQWHQFH LQ &DVH 1RV  DQG  LQ WKH :HVWHUQ 'LVWULFW RI 7HQQHVVHH

MANDATORY CONDITIONS
1.
.
.

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release from
imprisonment and at least two periodic drug tests thereafter, as determined by the court.
G The above drug testing condition is suspended, based on the court's determination that you
SRVHDORZULVNRIIXWXUHVXEVWDQFHDEXVH FKHFNLIDSSOLFDEOH



G <RXPXVWPDNHUHVWLWXWLRQLQDFFRUGDQFHZLWK86&DQG$RUDQ\RWKHUVWDWXWHDXWKRUL]LQJDVHQWHQFHRI

.

✔ You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)
G
G You must comply with the requirements of the Sex Offender Registration and Notification Act (42 U.S.C. § 16901, et seq.) as

.

UHVWLWXWLRQ FKHFNLIDSSOLFDEOH

directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in WKHORFDWLRQwhHUH you
reside, work,are a student, or were convicted of a qualifying offense. (check if applicable)

.

G You must participate in an approved program for domestic violence. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the attached
page.

37a

Case 2:17-cr-20103-TLP Document 479 Filed 12/03/19 Page 5 of 8

PageID 1151

AO 245B (Rev. ) Judgment in a Criminal Case
Sheet 3A — Supervised Release
Judgment—Page



of



DEFENDANT: -2+16+,(/'6 DND -RKQ -RKQ DND -RKQ -XD
CASE NUMBER: &57/3

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are imposed
because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed by probation
officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1.
2.
3.
4.
5.

6.
7.

8.
9.
10.
11.
12.
13.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from the
court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer to
take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that was
designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant without
first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overview of Probation and Supervised
Release Conditions, available at: www.uscourts.gov.
Defendant's Signature

Date

38a

Case 2:17-cr-20103-TLP Document 479 Filed 12/03/19 Page 6 of 8

PageID 1152

AO 245B (Rev. ) Judgment in a Criminal Case
Sheet 3B — Supervised Release
Judgment—Page



of



DEFENDANT: -2+16+,(/'6 DND -RKQ -RKQ DND -RKQ -XD
CASE NUMBER: &57/3

ADDITIONAL SUPERVISED RELEASE TERMS
 7KH GHIHQGDQW VKDOO SDUWLFLSDWH LQ GUXJ WHVWLQJ DQG WUHDWPHQW DV GLUHFWHG E\ WKH SUREDWLRQ RIILFHU
 7KH GHIHQGDQW VKDOO SDUWLFLSDWH LQ *(' FRXUVHV DQGRU YRFDWLRQDO WUDLQLQJ DV GLUHFWHG E\ WKH SUREDWLRQ RIILFHU
 7KH GHIHQGDQW VKDOO SDUWLFLSDWH LQ PHQWDO KHDOWK FRXQVHOLQJ DV GLUHFWHG E\ WKH SUREDWLRQ RIILFHU
 7KH GHIHQGDQW VKDOO SDUWLFLSDWH LQ 0RUDO 5HFRQDWLRQ 7KHUDS\ 057 RU DQRWKHU VLPLODU DQG DSSURYHG FRJQLWLYH
EHKDYLRUDO WKHUDS\ SURJUDP DV GLUHFWHG E\ WKH SUREDWLRQ RIILFHU
 7KH GHIHQGDQW VKDOO VXEPLW SHUVRQ SURSHUW\ KRXVH UHVLGHQFH YHKLFOH SDSHUV RU RIILFH WR D VHDUFK FRQGXFWHG E\ WKH
8QLWHG 6WDWHV 3UREDWLRQ 2IILFHU )DLOXUH WR VXEPLW WR D VHDUFK PD\ EH JURXQGV IRU UHYRFDWLRQ RI UHOHDVH 7KH GHIHQGDQW
VKDOO ZDUQ DQ\ RWKHU RFFXSDQWV WKDW WKH SUHPLVHV PD\ EH VXEMHFW WR VHDUFKHV SXUVXDQW WR WKLV FRQGLWLRQ $Q RIILFHU PD\
FRQGXFW D VHDUFK SXUVXDQW WR WKLV FRQGLWLRQ RQO\ ZKHQ UHDVRQDEOH VXVSLFLRQ H[LVWV WKDW WKH GHIHQGDQW KDV YLRODWHG D
FRQGLWLRQ RI KLV VXSHUYLVLRQ DQG WKDW WKH DUHDV WR EH VHDUFKHG FRQWDLQ HYLGHQFH RI WKLV YLRODWLRQ $Q\ VHDUFK PXVW EH
FRQGXFWHG DW WKH UHDVRQDEOH WLPH DQG LQ D UHDVRQDEOH PDQQHU

39a

Case 2:17-cr-20103-TLP Document 479 Filed 12/03/19 Page 7 of 8

AO 245B (Rev. )

PageID 1153

Judgment in a Criminal Case
Sheet 5 — Criminal Monetary Penalties
Judgment — Page



of



DEFENDANT: -2+16+,(/'6 DND -RKQ -RKQ DND -RKQ -XD
CASE NUMBER: &57/3

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
JVTA Assessment*

Assessment
TOTALS

$ 

Fine

$

Restitution

$

G The determination of restitution is deferred until

$

. An Amended Judgment in a Criminal Case (AO 245C) will be entered

after such determination.

G The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified otherwise in
the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal victims must be paid
before the United States is paid.
Total Loss**

Name of Payee

TOTALS



$

$

Restitution Ordered

Priority or Percentage



G

Restitution amount ordered pursuant to plea agreement $

G

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

G

The court determined that the defendant does not have the ability to pay interest and it is ordered that:

G the interest requirement is waived for the
G the interest requirement for the

G fine

G fine
G

G restitution.

restitution is modified as follows:

* Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22.
** Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or
after September 13, 1994, but before April 23, 1996.

40a

Case 2:17-cr-20103-TLP Document 479 Filed 12/03/19 Page 8 of 8

$2% 5HY -XGJPHQWLQD&ULPLQDO&DVH
Sheet 6 — Schedule of Payments

PageID 1154

Judgment — Page



of



DEFENDANT: -2+16+,(/'6 DND -RKQ -RKQ DND -RKQ -XD
CASE NUMBER: &57/3

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

G Lump sum payment of $
G
G

not later than
in accordance with

due immediately, balance due

G

C,

G

D,

G

, or
E, or

B

G Payment to begin immediately (may be combined with

C

G Payment in equal

D

G Payment in equal

G F below; or
G C,

G D, or

G F below); or

(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after the date of this judgment; or
(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after release from imprisonment to a

term of supervision; or
E

G Payment during the term of supervised release will commence within

F

G Special instructions regarding the payment of criminal monetary penalties:

(e.g., 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due during
the period of imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’ Inmate
Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

G Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.

G The defendant shall pay the cost of prosecution.
G The defendant shall pay the following court cost(s):
G The defendant shall forfeit the defendant’s interest in the following property to the United States:

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal, (5) fine
interest, (6) community restitution, (7) JVTA assessment, (8) penalties, and (9) costs, including cost of prosecution and court costs.

41a

Case 2:17-cr-20151-TLP Document 805 Filed 12/03/19 Page 1 of 8
AO 245B (Rev. )

PageID 2650

Judgment in a Criminal Case
Sheet 1

UNITED STATES DISTRICT COURT
Western District
of of
Tennessee
__________
District
__________
)
UNITED STATES OF AMERICA
JUDGMENT IN A CRIMINAL CASE
)
v.
)
)
-2+16+,(/'6
Case Number: &57/3
)
DND -RKQ -RKQ
)
USM Number: 
DND -RKQ -XDQ
)
$QGUH % 0DWKLV &-$
)
Defendant’s
Attorney
)

THE DEFENDANT:

✔ pleaded guilty to count(s)
G

  DQG  RI WKH ,QGLFWPHQW RQ 

G pleaded nolo contendere to count(s)
which was accepted by the court.

G was found guilty on count(s)
after a plea of not guilty.
The defendant is adjudicated guilty of these offenses:
Title & Section

Nature of Offense

Offense Ended

 86&   DQG

&RQVSLUDF\ WR 3RVVHVV ZLWK ,QWHQW WR 'LVWULEXWH DQG

 86&   E  %

'LVWULEXWLRQ RI 0DULMXDQD



The defendant is sentenced as provided in pages 2 through
the Sentencing Reform Act of 1984.



Count



of this judgment. The sentence is imposed pursuant to

G The defendant has been found not guilty on count(s)
G Count(s)

G is

G are dismissed on the motion of the United States.

It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name, residence,
or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay restitution,
the defendant must notify the court and United States attorney of material changes in economic circumstances.


Date of Imposition of Judgment

V 7KRPDV / 3DUNHU
Signature of Judge

7+20$6 / 3$5.(5 81,7(' 67$7(6 ',675,&7 &2857
Name and Title of Judge


Date

42a

Case 2:17-cr-20151-TLP Document 805 Filed 12/03/19 Page 2 of 8
AO 245B (Rev. )

PageID 2651

Judgment in a Criminal Case
Sheet 1A
Judgment—Page

DEFENDANT: -2+16+,(/'6 DND -RKQ -RKQ DND -RKQ -XD
CASE NUMBER: &57/3



of

ADDITIONAL COUNTS OF CONVICTION
Title & Section

Nature of Offense

Offense Ended

 86&  D 

3RVVHVVLRQ ZLWK ,QWHQW WR 'LVWULEXWH DQG 'LVWULEXWLRQ RI

DQG  86& 

0DULMXDQD $LGLQJ DQG $EHWWLQJ

 86&  K

&RQVSLUDF\ WR &RPPLW 0RQH\ /DXQGHULQJ

43a

Count











Case 2:17-cr-20151-TLP Document 805 Filed 12/03/19 Page 3 of 8

PageID 2652

AO 245B (Rev. ) Judgment in Criminal Case
Sheet 2 — Imprisonment
Judgment — Page



of



DEFENDANT: -2+16+,(/'6 DND -RKQ -RKQ DND -RKQ -XD
CASE NUMBER: &57/3

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a total
term of:
 PRQWKV 7KH VHQWHQFH VKDOO EH DOORFDWHG DV IROORZV &RXQW   PRQWKV RQ WKH XQGHUO\LQJ RIIHQVH  PRQWKV RQ HQKDQFHPHQW
XQGHU  86&   &RXQW   PRQWKV RQ WKH XQGHUO\LQJ RIIHQVH  PRQWKV RQ WKH   HQKDQFHPHQW DQG &RXQW  
PRQWKV RQ WKH XQGHUO\LQJ RIIHQVH  PRQWKV RQ WKH   HQKDQFHPHQW 6HQWHQFHV RQ WKH XQGHUO\LQJ RIIHQVHV DUH FRQFXUUHQW WR
HDFK RWKHU DQG &DVH 1XPEHUV   EXW FRQVHFXWLYH WR WKH PRQWK VHQWHQFH IRU WKH   HQKDQFHPHQW (DFK 
PRQWK VHQWHQFH XQGHU WKH  86&   HQKDQFHPHQW LV FRQFXUUHQW ZLWK HDFK RWKHU 7KH WRWDO 6HQWHQFH LV WKHUHIRUH  PRQWKV

✔ The court makes the following recommendations to the Bureau of Prisons:
G
 7KH GHIHQGDQW EH DOORZHG WR SDUWLFLSDWH LQ WKH 5'$3 3URJUDP
 7KH GHIHQGDQW EH LQFDUFHUDWHG DW D IDFLOLW\ LQ RU QHDU WKH 0HPSKLV 71 DUHD

✔ The defendant is remanded to the custody of the United States Marshal.
G

G The defendant shall surrender to the United States Marshal for this district:
G at

G a.m.

G p.m.

on

.

G as notified by the United States Marshal.
G The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
G before 2 p.m. on

.

G as notified by the United States Marshal.
G as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on
aW

to
, with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

44a

Case 2:17-cr-20151-TLP Document 805 Filed 12/03/19 Page 4 of 8

PageID 2653

AO 245B (Rev. ) Judgment in a Criminal Case
Sheet 3 — Supervised Release
Judgment—Page



of



DEFENDANT: -2+16+,(/'6 DND -RKQ -RKQ DND -RKQ -XD
CASE NUMBER: &57/3

SUPERVISED RELEASE
Upon release from imprisonment, you will be on supervised release for a term of :

 \HDUV  \HDUV DV WR &RXQW   \HDUV DV WR &RXQW  DQG  \HDUV DV WR &RXQW  WR UXQ FRQFXUUHQW WR HDFK RWKHU DQG
FRQFXUUHQW WR WKH  \HDUV 6HQWHQFH LQ &DVH 1RV  DQG  LQ WKH :HVWHUQ 'LVWULFW RI 7HQQHVVHH

MANDATORY CONDITIONS
1.
.
.

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release from
imprisonment and at least two periodic drug tests thereafter, as determined by the court.
G The above drug testing condition is suspended, based on the court's determination that you
SRVHDORZULVNRIIXWXUHVXEVWDQFHDEXVH FKHFNLIDSSOLFDEOH



G <RXPXVWPDNHUHVWLWXWLRQLQDFFRUGDQFHZLWK86&DQG$RUDQ\RWKHUVWDWXWHDXWKRUL]LQJDVHQWHQFHRI

.

✔ You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)
G
G You must comply with the requirements of the Sex Offender Registration and Notification Act (42 U.S.C. § 16901, et seq.) as

.

UHVWLWXWLRQ FKHFNLIDSSOLFDEOH

directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in WKHORFDWLRQwhHUH you
reside, work,are a student, or were convicted of a qualifying offense. (check if applicable)

.

G You must participate in an approved program for domestic violence. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the attached
page.

45a

Case 2:17-cr-20151-TLP Document 805 Filed 12/03/19 Page 5 of 8

PageID 2654

AO 245B (Rev. ) Judgment in a Criminal Case
Sheet 3A — Supervised Release
Judgment—Page



of



DEFENDANT: -2+16+,(/'6 DND -RKQ -RKQ DND -RKQ -XD
CASE NUMBER: &57/3

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are imposed
because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed by probation
officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1.
2.
3.
4.
5.

6.
7.

8.
9.
10.
11.
12.
13.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from the
court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer to
take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that was
designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant without
first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overview of Probation and Supervised
Release Conditions, available at: www.uscourts.gov.
Defendant's Signature

Date

46a

Case 2:17-cr-20151-TLP Document 805 Filed 12/03/19 Page 6 of 8

PageID 2655

AO 245B (Rev. ) Judgment in a Criminal Case
Sheet 3B — Supervised Release
Judgment—Page



of



DEFENDANT: -2+16+,(/'6 DND -RKQ -RKQ DND -RKQ -XD
CASE NUMBER: &57/3

ADDITIONAL SUPERVISED RELEASE TERMS
 7KH GHIHQGDQW VKDOO SDUWLFLSDWH LQ GUXJ WHVWLQJ DQG WUHDWPHQW DV GLUHFWHG E\ WKH SUREDWLRQ RIILFHU
 7KH GHIHQGDQW VKDOO SDUWLFLSDWH LQ *(' FRXUVHV DQGRU YRFDWLRQDO WUDLQLQJ DV GLUHFWHG E\ WKH SUREDWLRQ RIILFHU
 7KH GHIHQGDQW VKDOO SDUWLFLSDWH LQ PHQWDO KHDOWK FRXQVHOLQJ DV GLUHFWHG E\ WKH SUREDWLRQ RIILFHU
 7KH GHIHQGDQW VKDOO SDUWLFLSDWH LQ 0RUDO 5HFRQDWLRQ 7KHUDS\ 057 RU DQRWKHU VLPLODU DQG DSSURYHG FRJQLWLYH
EHKDYLRUDO WKHUDS\ SURJUDP DV GLUHFWHG E\ WKH SUREDWLRQ RIILFHU
 7KH GHIHQGDQW VKDOO VXEPLW SHUVRQ SURSHUW\ KRXVH UHVLGHQFH YHKLFOH SDSHUV RU RIILFH WR D VHDUFK FRQGXFWHG E\ WKH
8QLWHG 6WDWHV 3UREDWLRQ 2IILFHU )DLOXUH WR VXEPLW WR D VHDUFK PD\ EH JURXQGV IRU UHYRFDWLRQ RI UHOHDVH 7KH GHIHQGDQW
VKDOO ZDUQ DQ\ RWKHU RFFXSDQWV WKDW WKH SUHPLVHV PD\ EH VXEMHFW WR VHDUFKHV SXUVXDQW WR WKLV FRQGLWLRQ $Q RIILFHU PD\
FRQGXFW D VHDUFK SXUVXDQW WR WKLV FRQGLWLRQ RQO\ ZKHQ UHDVRQDEOH VXVSLFLRQ H[LVWV WKDW WKH GHIHQGDQW KDV YLRODWHG D
FRQGLWLRQ RI KLV VXSHUYLVLRQ DQG WKDW WKH DUHDV WR EH VHDUFKHG FRQWDLQ HYLGHQFH RI WKLV YLRODWLRQ $Q\ VHDUFK PXVW EH
FRQGXFWHG DW WKH UHDVRQDEOH WLPH DQG LQ D UHDVRQDEOH PDQQHU

47a

Case 2:17-cr-20151-TLP Document 805 Filed 12/03/19 Page 7 of 8

AO 245B (Rev. )

PageID 2656

Judgment in a Criminal Case
Sheet 5 — Criminal Monetary Penalties
Judgment — Page



of



DEFENDANT: -2+16+,(/'6 DND -RKQ -RKQ DND -RKQ -XD
CASE NUMBER: &57/3

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
JVTA Assessment*

Assessment
TOTALS

$ 

Fine

$

Restitution

$

G The determination of restitution is deferred until

$

. An Amended Judgment in a Criminal Case (AO 245C) will be entered

after such determination.

G The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified otherwise in
the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal victims must be paid
before the United States is paid.
Total Loss**

Name of Payee

TOTALS



$

$

Restitution Ordered

Priority or Percentage



G

Restitution amount ordered pursuant to plea agreement $

G

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

G

The court determined that the defendant does not have the ability to pay interest and it is ordered that:

G the interest requirement is waived for the
G the interest requirement for the

G fine

G fine
G

G restitution.

restitution is modified as follows:

* Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22.
** Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or
after September 13, 1994, but before April 23, 1996.

48a

Case 2:17-cr-20151-TLP Document 805 Filed 12/03/19 Page 8 of 8

$2% 5HY -XGJPHQWLQD&ULPLQDO&DVH
Sheet 6 — Schedule of Payments

PageID 2657

Judgment — Page



of



DEFENDANT: -2+16+,(/'6 DND -RKQ -RKQ DND -RKQ -XD
CASE NUMBER: &57/3

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

G Lump sum payment of $
G
G

not later than
in accordance with

due immediately, balance due

G

C,

G

D,

G

, or
E, or

B

G Payment to begin immediately (may be combined with

C

G Payment in equal

D

G Payment in equal

G F below; or
G C,

G D, or

G F below); or

(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after the date of this judgment; or
(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after release from imprisonment to a

term of supervision; or
E

G Payment during the term of supervised release will commence within

F

G Special instructions regarding the payment of criminal monetary penalties:

(e.g., 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due during
the period of imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’ Inmate
Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

G Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.

G The defendant shall pay the cost of prosecution.
G The defendant shall pay the following court cost(s):
G The defendant shall forfeit the defendant’s interest in the following property to the United States:

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal, (5) fine
interest, (6) community restitution, (7) JVTA assessment, (8) penalties, and (9) costs, including cost of prosecution and court costs.

49a

